<html>
<title> - U.S. DEPARTMENT OF JUSTICE CIVIL RIGHTS DIVISION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      U.S. DEPARTMENT OF JUSTICE 
                         CIVIL RIGHTS DIVISION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 1, 2011

                               __________

                           Serial No. 112-61

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-613                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0a7b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             DEBBIE WASSERMAN SCHULTZ, Florida
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
[Vacant]

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                              JUNE 1, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Ranking Member, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution........    10

                                WITNESS

The Honorable Thomas E. Perez, Assistant Attorney General, Civil 
  Rights Division, U.S. Department of Justice
  Oral Testimony.................................................    24
  Prepared Statement.............................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary
  Letter dated May 27, 2011, to the Honorable Lamar S. Smith, 
    Chairman, Committee on the Judiciary, U.S. House of 
    Representatives, from Ronald Weich, Assistant Attorney 
    General, Office of Legislative Affairs, U.S. Department of 
    Justice......................................................     6
  Letter dated May 31, 2011, to the Honorable Eric H. Holder, 
    Attorney General, U.S. Department of Justice, from Lamar 
    Smith, Chairman, Committee on the Judiciary..................     8
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, Ranking 
  Member, Committee on the Judiciary, and Member, Subcommittee on 
  the Constitution
  Letter dated May 12, 2011, to the Honorable Eric H. Holder, 
    Attorney General, U.S. Department of Justice, from Lamar 
    Smith, Chairman, Committee on the Judiciary..................    11
  Letter dated May 27, 2011, to the Honorable Lamar S. Smith, 
    Chairman, Committee on the Judiciary, U.S. House of 
    Representatives, from Ronald Weich, Assistant Attorney 
    General, Office of Legislative Affairs, U.S. Department of 
    Justice......................................................    14
  Letter dated February 11, 2011, to the Honorable Eric H. 
    Holder, Attorney General, U.S. Department of Justice, from 
    Lamar Smith, Chairman, Committee on the Judiciary............    16
  Article from The New York Times, May 31, 2011, titled ``In 
    Shift, Justice Department is Hiring Lawyers With Civil Rights 
    Backgrounds''................................................    18

                                APPENDIX
               Material Submitted for the Hearing Record

Post-Hearing Questions submitted to the Honorable Thomas E. 
  Perez, Assistant Attorney General, Civil Rights Division, U.S. 
  Department of Justice..........................................    51
Response to Post-Hearing Questions from the U.S. Department of 
  Justice........................................................    69
Prepared Statement of Sean Bennett...............................   125


                      U.S. DEPARTMENT OF JUSTICE 
                         CIVIL RIGHTS DIVISION

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 11:57 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Smith, King, Nadler, 
Quigley, Conyers, and Scott.
    Staff present: (Majority) Holt Lackey, Counsel; Harold 
Damelin, Counsel; Sarah Vance, Clerk; (Minority) David 
Lachmann, Subcommittee Staff Director; and Veronica Eligan, 
Professional Staff Member.
    Mr. Franks. The Subcommittee will come to order.
    We just want to welcome everyone to the Subcommittee on the 
Constitution, particularly Assistant Attorney General Thomas 
Perez. I will apologize to you for the Committee starting late. 
We had a meeting at the White House, and all of us were 
expected to be there. So, we appreciate everybody coming.
    We want to welcome everyone to this first Civil Rights 
Division oversight hearing of the 112th Congress where we have 
Assistant Attorney General Perez before us to represent the 
Department of Justice.
    This year marks the 150th anniversary of the Civil War. It 
is a chance not just to reflect on the horror of 
institutionalized slavery, but to take solace in the redeeming 
recognition that this Nation fought its bloodiest war to end 
it.
    The Justice Department's Civil Rights Division has the 
mission of continuing this American virtue of introspection, 
self-correction, and commitment to civil rights.
    In its limited time, an oversight hearing by its nature 
necessarily focuses on what is being done wrong rather than 
what is being done right. That should not detract from the core 
proposition of equality with which we all agree, what I think 
is a directive to treat everyone, of course, as children of 
God.
    The Constitution adjures the President to take care that 
the laws be ``faithfully executed,'' and this signifies that 
the chief executive must execute the laws in a manner that is 
faithful to the intended meaning given to them by the people's 
representatives. Instead, there is evidence the division is 
engaging in a pattern and practice of straining the meaning of 
Federal civil rights statutes to further policies far beyond 
those ever contemplated by Congress.
    For example, the Division sent formal letters to two 
upstate New York schools questioning enforcement of their dress 
codes against two male students, one who wore a pink wig and 
makeup and the other who wore a wig and stiletto heels and said 
he wanted to be able to dress like a woman. These are not top 
priorities for the Nation's top law enforcement agencies 
charged with defending our citizens from all enemies, foreign 
and domestic. There is no obvious injury, and local authorities 
are sufficient to address these issues or non-issues as the 
case may be.
    In these instances, one might have hoped that the 
Department would have instead pursued cases involving racial 
violence, violations of citizens' rights to vote, or other 
egregious injuries.
    Law enforcement is all about prioritization. We cannot 
possibly address all illegal activity with our limited 
resources. We must therefore remedy the most serious and 
grievous offenses to our freedoms. Adolescent cross-dressing is 
not one of them. And cases like this give the appearance that a 
political agenda might be the first priority. The Department of 
Justice is an executive agency charged with enforcing the laws, 
not making social policy.
    Other cases suggest activism as well. For example, the 
Division forced Dayton, Ohio to lower the passing score on its 
police recruiting exam because the Department of Justice did 
not like the overall racial makeup of those who successfully 
passed the exam. The taxpayers of Dayton paid for this test to 
be developed at significant cost by an outside company with 
specific expertise. Instead of straining to show the test was 
flawed, the Department might have heeded explicit Federal law 
making it unlawful to ``use different cutoff scores for or 
otherwise alter the results of employment-related test scores 
on the basis of race.'' Even the local NAACP criticized the 
Division's extreme actions as endangering public safety.
    Another example is the Division's strained reading of 
Section 4(e) of the Voting Rights Act, to require bilingual 
ballots when the explicit bilingual ballot provisions of the 
VRA would not apply. The Division's construction is 
inconsistent with the language and legislative history which 
shows 4(e) was simply concerned with exempting U.S. citizens 
educated in Spanish in Puerto Rico from then prevalent literacy 
tests for voters.
    The Department's strained construction upon which it levied 
action recently forced the taxpayers of Cuyahoga County, Ohio 
to spend $100,000 on translation services that have no basis in 
Federal law. A variation in filing suits that are unwarranted 
is failing to file suits that are warranted.
    There was sworn testimony from former Voting Section 
attorneys, Christopher Coats and Christian Adams, corroborated 
by documents, indicating that Deputy Assistant Attorney General 
Julie Fernandez has made statements to the Voting Section staff 
she oversees, suggesting this Administration is not committed 
to enforcing voting laws in a race neutral manner. She has also 
told staff that there is no interest in enforcing voting list 
accuracy requirements in Section 8 of the National Voter 
Registration Act, opening the door to even worse vote fraud 
than that which ACORN and others gave us in the last election, 
permitting the identities of illegal or dead persons to 
potentially be used to cancel out the votes of lawful voters. 
And I am interested in what you have done to acknowledge and 
address these citizens and these statements.
    Rather than faithfully execute the laws, the Division is 
either not acting or forcing cash strapped jurisdictions to 
spend money in cases that many Americans would not think 
represent discrimination of the type it was created to fight. 
Not only is this not a way to justify budget increases, it 
actually jeopardizes the legislative process. The delicate 
compromises on which legislation depends will be impossible if 
neither side can trust that its understanding of the final 
product will be respected by the enforcing body after it is 
passed.
    I look forward to hearing your testimony on how the laws 
have been faithfully executed.
    And I would now recognize the Ranking Member of the 
Subcommittee, Mr. Nadler, for his opening statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    Today the Subcommittee continues its oversight of the Civil 
Rights Division of the Department of Justice. With the 
authority to enforce this Nation's civil rights laws, the 
Division is the guardian of our fundamental values: freedom of 
religion, the right to be treated fairly, the right to cast a 
vote in a free and fair election, the right to a job, the right 
to a home, the right to an education, and, with the enactment 
of the Hate Crimes Prevention Act, the right to live one's life 
free from the threat of violent hate crimes.
    As our Subcommittee had documented, the Division was deeply 
troubled during the Bush years. As with other parts of the 
Justice Department, career civil rights attorneys were 
routinely overruled on legal matters by political appointees. 
Hiring was illegally politicized, enforcement was, in some keys 
areas, grossly neglected, and morale was as bad as at any time 
since the Division's establishment. The loss of dedicated 
career staff was alarming.
    President Obama signaled a new era by appointing as 
Assistant Attorney General Tom Perez, who will testify today. 
He is a career civil rights lawyer, and he has been working 
hard to rebuild a division that had lost many of its dedicated 
career attorneys that had become dangerously politicized.
    In addition to the historically challenging work of the 
Civil Rights Division, he has been rebuilding a decimated and 
demoralized office, and he has done so while dealing with such 
monumental tasks as the decennial redistricting.
    What is most distressing is that some of the same people 
who undermined and discredited the Civil Rights Division while 
they were there have now made a career of making false 
allegations against the Division from the outside. What is 
disturbing is that the allegations all seem to have the same 
subtext, that the Division is being used to favor minorities to 
the detriment of whites. What they really mean is that the 
Division is now making an honest effort to enforce in an even-
handed manner our civil rights laws, laws which the complainers 
who were previously in the Division really do not like at all. 
It is Willie Horton campaign pure and simple.
    As soon as each new allegation is debunked, we hear two 
more false allegations. I would not be surprised if, even after 
an independent investigation that has completely discredited 
the allegations surrounding the New Black Panther Party, 
allegations of voter intimidation without any voter ever having 
complained of being intimidated, I would not be surprised if 
people still hear that case revived today as it is revived all 
the time. It is disgraceful.
    We actually face some serious civil rights challenges, and 
I hope to hear from Mr. Perez on how the Division is working to 
meet those challenges. It would be nice to have a hearing in 
which we actually discuss civil rights policy and enforcement, 
but we will see if that is possible in the current environment.
    I am pleased to welcome Mr. Perez, and I look forward to 
his testimony and to the questions and answers from the Members 
of the Committee.
    Thank you. I yield back.
    Mr. Franks. I thank the Ranking Member. And I now recognize 
the Chairman of the full Committee, Mr. Smith, for his opening 
statement.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Perez, thank you for being here. We look forward to 
your comments.
    Congressional oversight is necessary to improve the 
operation of the executive branch and its responsiveness to the 
American people. Unfortunately, since 2009, there have been 
troubling allegations about the conduct of the Civil Rights 
Division and its personnel.
    First, the Department dismissed most of the voter 
intimidation cases against the New Black Panther Party. Then it 
was alleged that a deputy assistant attorney general instructed 
Voting Section staff that the division will only bring cases 
for the benefit of racial minorities. This person is also 
alleged to have said that the voting list maintenance 
requirements of Section 8 of the National Voter Registration 
Act will not be enforced. Then more recently, comments 
allegedly were made at a January Voting Section training 
section indicating that voting rights laws were not to be 
enforced in a race neutral manner during the current 
redistricting cycle.
    Most troubling about these allegations is that they 
constitute a clear pattern. If the Administration is choosing 
whom to protect based on skin color, the American people should 
know that there is not equal justice under the law.
    In January, I wrote Attorney General Holder advising him 
that I had initiated an inquiry into the Division's enforcement 
of Federal voting rights laws. This inquiry is focused on 
whether the Division has adopted a practice of race-based 
enforcement of these laws. The Attorney General gave me his 
personal commitment to make available any information necessary 
for the Committee to perform its oversight function. 
Unfortunately, I have been disappointed that the Department's 
actions have failed to live up to the Attorney General's 
promised cooperation.
    Since January, I have made two separate reasonable, 
straightforward requests for information as part of this 
inquiry. While the Department has provided some documents of 
limited relevancy in response, it has withheld a number of 
other responsive and highly relevant documents based only on a 
vague assertion of a confidentiality interest. Yet 
confidentiality is not a recognized privilege. Transparency is 
crucial for a government to function properly. The Department 
appears to have concocted a confidentiality interest to hide 
important information from the American people.
    After the close of business last Friday, and with this 
hearing looming, the Department offered to make some of the 
withheld documents available for Committee review. However, the 
Department placed unacceptable conditions on this offer. It is 
improper for the Department to dictate to this Committee how it 
should make use of information that is responsive to a 
legitimate oversight interest.
    I would ask that the Department's May 27 letter and my 
response dated May 31 be made a part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Smith. It is time for the Department's game of hide and 
seek to end and for it to respond and cooperate. Its actions 
have not only been inconsistent, they have contradicted the 
Attorney General's personal assurances to me.
    Congressional oversight is the constitutional duty of 
Congress. This Committee is conducting a legitimate oversight 
inquiry into the Department's enforcement of Federal laws. As 
such, absent a claim of executive privilege, it has an 
unassailable right to receive the documents responsive to my 
request that the Department continues to withhold.
    Mr. Perez, I hope your appearance today will help the 
Committee move forward with its inquiry. I also hope that the 
Department will provide the requested documents to the 
Committee. And I thank you for appearing.
    And, Mr. Chairman, I will yield back.
    Mr. Franks. And I thank the Chairman.
    And I now recognize the Ranking Member of the full 
Committee, Mr. Conyers, for his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman.
    I want to thank Chairman Smith for making some of his 
letters to the Attorney General available to us, and I would 
like to add them to the record, if I might, at this time: a 
letter to Eric Holder dated May 12, 2011; a letter to Chairman 
Smith from Assistant Attorney General Ronald Weich dated May 
27, 2011; and an earlier letter that Chairman Smith sent to 
Eric Holder dated February 11, 2011.
    Mr. Franks. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Conyers. Thank you so much.
    Now, it is so convenient that the New York Times just today 
has a great picture of Thomas Perez on page 13: ``In Shift, 
Justice Department Hiring Lawyers With Civil Rights 
Backgrounds.'' That is the title. And it goes on to say that 
under the Obama Administration, as Jerry Nadler has pointed 
out, the Justice Department's Civil Rights Division has 
reversed a pattern of systematically hiring conservative 
lawyers with little experience in civil rights, the practice 
that caused a scandal over politicization during the Bush 
Administration.
    I ask unanimous consent to put this in the record as well.
    Mr. Franks. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Conyers. Thank you.
    Now, I want to say this to Chairman Smith, with whom I have 
worked very closely over the last decade or more. This 
allegation that the Department of Justice is being racially 
unfair is a disturbing one. I happen to know Eric Holder, and I 
would appreciate us meeting on this to talk about an important 
situation. The Civil Rights Division has been literally dormant 
during the Bush Administration, and I do not mean to be 
partisan about this. And you have continually implied that 
there is some race consciousness going on in the way that they 
conduct their affairs. Now, if that is so, I would like to know 
about it more than a hearing in which we get 5 minutes to 
question a witness. This is a very serious matter.
    Now, you have been sent over 5,000 pages of material from 
the Department of Justice.
    You raised the question about the Black Panthers, and I 
have here the letter that found that the Black Panther case, 
which you wrote the Department of Justice, Chairman Smith, on 
July 9, 2009. It was referred to the Department's Office of 
Professional Responsibility, which you got a conclusive 
response on May 17, 2011, in which the Office of Professional 
Responsibility found no evidence to support allegations that 
were raised in their investigation, that the decision makers 
either in bringing or dismissing the claims, were influenced by 
the race of the defendants or any considerations other than an 
assessment of the evidence and the applicable law. That is the 
Ethics Division of the Department of Justice that has made this 
claim. And so, we have not heard much about it.
    But now we have new claims, and these are very sensitive 
remarks to me. And I am trying to find out what the basis of 
them are. And it seems to me this Committee has that 
responsibility.
    Now, generally, Mr. Perez has been receiving commendations 
for his work in the last 2 years as the leader of the Civil 
Rights Division. But where is the preferential treatment to 
minorities being given anybody here? And I think these attacks, 
especially coming from Members of the Judiciary Committee, are 
absolutely outrageous.
    Mr. Smith. Will the gentleman yield?
    Mr. Conyers. I certainly will.
    Mr. Smith. Okay.
    Mr. Conyers. Just let me finish. I would like to meet with 
you to discuss any evidence that you have of any substance that 
would give a foundation to these allegations, because I think 
they are subverting the whole idea of the Civil Rights Division 
in the Department of Justice. And I would be pleased to yield 
to the Chair.
    Mr. Smith. Thank you for yielding.
    First of all, as far as the evidence goes, as I mentioned 
in my opening statement, as I think the gentleman is aware, 
there have been two or three individuals who have made 
statements independent of anything that any Member of Congress 
has said, that would raise very strong suspicions of decisions 
being made on the basis of race.
    But the reason we had requested the documents is to try to 
get to the bottom of the matter, and I hope the gentleman would 
join me in making sure these documents do get to us so that we 
can get the facts. I, like you, feel that I have a good working 
relationship with the Attorney General, and because he has 
given me his personal assurances, I have been surprised that 
the documents that we have requested have not been forthcoming. 
But if we are going to get to the facts, if we are going to get 
to the point where we can find out whether these allegations 
are true or not, we are going to need those documents.
    And I hope, as I say, that the gentleman would join me in 
trying to secure these documents, and then we can come to a 
reasoned conclusion as to where there has been the form of 
discrimination to which I have alluded or not. And so, let us 
get those documents, and we can sit down and discuss what is in 
them, and whether they are helpful or not.
    Mr. Conyers. Well, you have not ever invited me before just 
now.
    Mr. Smith. Consider this an invitation to help me get those 
documents.
    Mr. Conyers. I consider it an invitation.
    Mr. Smith. Okay.
    Mr. Conyers. Okay.
    Now, I want to conclude, Mr. Chairman. And I would like to 
just ask my friend, the Chairman of the Committee, one last 
question. Who are the people that you have gotten this 
information from?
    Mr. Smith. We will be happy to give you the quotes. They 
have been in numerous publication articles and in other news 
reports. We will be happy to get all those to you.
    Mr. Conyers. Well, let me ask you this. How many people are 
you talking about, one or two or three or 15?
    Mr. Smith. Okay. We have several individuals who have made 
those comments.
    Mr. Conyers. Okay.
    Mr. Smith. And we can share those individuals' names with 
you privately. But, again, I am pleased if you are joining me 
in my request to get these relevant documents.
    Mr. Conyers. Oh, absolutely. And I thank you, Mr. Chairman.
    Mr. Franks. I thank the Ranking Member.
    Without objection, other Members' opening statements will 
be made part of the record.
    I would like to introduce our witness.
    Assistant Attorney General Thomas Perez is here today to 
testify before this Committee. Mr. Perez became the Assistant 
Attorney General for the Civil Rights Division on October 8, 
2009. Prior to becoming the Assistant Attorney General, he 
served as the secretary of Maryland's Department of Labor, 
Licensing, and Regulation.
    Mr. Perez has spent his entire career in public service, 
serving as a career prosecutor in the Civil Rights Division and 
then as a Deputy Assistant Attorney General for the Division. 
He then went on to serve as director of the Office for Civil 
Rights at the Department of Health and Human Services.
    In addition to his extensive Justice Department service, he 
has also served as special counsel to the late Senator Edward 
Kennedy.
    Mr. Perez is a graduate of the Harvard Law School and holds 
a bachelor's degree from Brown University and a master's in 
public policy from the Kennedy School of Government. He resides 
in Maryland with his wife and three children.
    Assistant Attorney General Perez, we look forward to 
hearing your testimony today and welcome you again to today's 
hearing.
    Mr. Perez's written statement will be entered into the 
record in its entirety. And I ask you, sir, to summarize your 
testimony in 5 minutes or less. To help you stay within that 
timeframe, there's a timing light on your table. When the light 
switches from green to yellow, you will have 1 minute to 
conclude your testimony. When the light turns red, it signals 
that your 5 minutes have expired.
    So, before I recognize Mr. Perez, it is the tradition of 
this Subcommittee that a witness be sworn. So, if you would 
please stand.
    [Witness sworn.]
    Mr. Franks. Thank you, sir.
    I now recognize Mr. Perez for 5 minutes.

TESTIMONY OF THE HONORABLE THOMAS E. PEREZ, ASSISTANT ATTORNEY 
                 GENERAL, CIVIL RIGHTS DIVISION

    Mr. Perez. Good afternoon, Chairman Franks, Ranking Member 
Nadler, Chairman Smith, Ranking Member Conyers, and the 
distinguished Members of this Committee. Thank you for the 
opportunity to testify before you today about the critical work 
of the Civil Rights Division.
    I have great respect for the institution of the Civil 
Rights Division and the Department. I first entered the 
Department as a summer clerk in 1986, was hired as a career 
prosecutor in 1988, started in '89, and held just about every 
position a lawyer could hold as a career person. And now I have 
the privilege here of serving as the AAG.
    When I had the honor to appear before you just months after 
being sworn in as AAG, I spoke about our efforts to restore and 
transform the Division. I promised to ensure aggressive, even-
handed, and independent enforcement of all of the laws within 
our jurisdiction. And in the year and a half since, we have 
invested a great deal of energy in these efforts, and I am 
happy to report we have had great success.
    The work produced in recent weeks alone illustrates the 
wide range of efforts of the Division and is typical of our 
work. You have my full testimony, but I want to give you a 
snapshot of what has been happening in recent weeks.
    Last week, a jury in New York found three men guilty of 
charges relating to a scheme to compel undocumented Latin 
American women to come to the U.S. with promises of jobs as 
waitresses in bars, and then they forced them to engage in 
commercial sex acts. Human trafficking of this nature robs 
individuals of their freedom and dignity. And in 2009, we filed 
a record number of human trafficking cases, only to break that 
record in 2010.
    We recently won the first conviction at trial of a 
defendant charged under the Matthew Shepard and James Byrd, Jr. 
Hate Crimes Prevention Act of 2009, a law that has provided us 
with critical new tools to prosecute hate crimes.
    We also announced last week multimillion dollar settlements 
with Bank of America, Countrywide, and Saxon Mortgage Services 
to resolve allegations that they wrongfully foreclosed upon 
active duty members of the Armed Forces without first obtaining 
court orders in violation of the Service Members Civil Relief 
Act.
    By way of illustration, during our investigation, we 
encountered a case involving a servicemember who was severely 
injured by an IED while serving in Iraq, breaking his back and 
causing traumatic brain injury. The servicer foreclosed on him, 
despite receiving notice on multiple occasions that he was 
serving in Iraq. He returned to the U.S. in a wheelchair with 
the prognosis that he would never walk again. Courageously, he 
spent 2 years in recovery, re-learning how to walk and 
eventually run. However, he still suffers from the effects of 
traumatic brain injury.
    We cannot allow the members of our military who have made 
great personal sacrifices on our behalf to attempt to 
transition to civilian life, only to find their credit ruined 
and their homes in danger of foreclosure.
    Combined, these two settlements will provide more than $22 
million in monetary relief for at least 178 victims. The men 
and women who protect and defend our nation deserve to know 
that we have their backs at home. And these settlements are 
part of a broader effort in the Division to protect the rights 
of members of our Armed Forces. These efforts have included 
ramped up efforts to protect servicemembers' civilian 
employment rights, as well as an unprecedented effort to 
enforce UOCAVA and the MOVE Act and protect the voting rights 
of servicemembers.
    We have ramped up our fair lending enforcement, and we 
recently announced a settlement with Citizen's Bank in Michigan 
to resolve allegations that the bank discriminated against 
African-Americans by failing to serve the credit needs of 
African-American neighborhoods in and around Detroit. It was a 
classic case of redlining that deprives neighborhoods of the 
investment needed to thrive. We cannot claim to offer true 
equal opportunity if we are depriving entire neighborhoods of 
access to credit.
    Just yesterday, we announced a settlement agreement under 
the Americans With Disabilities Act with Wells Fargo to ensure 
equal access to credit and other banking services for people 
with disabilities. This $16 million settlement is the largest 
monetary agreement ever reached under Title III of the ADA.
    Just last week, we charged a Wisconsin man with a violation 
of the Freedom of Access to Clinic Entrances Act. The affidavit 
in support of the criminal complaint alleges that while loading 
his handgun, the defendant discharged a bullet through the door 
of his hotel room into a room across the hall. He was 
subsequently arrested, and the evidence uncovered so far 
indicates that he traveled to Wisconsin with his gun in an 
attempt to kill doctors to stop them from performing 
reproductive health services. This was just last week.
    We traveled recently to Newark, New Jersey to launch a 
civil pattern or practice investigation into the Newark police 
department and to work with them to identify challenges and 
come up with a blueprint for sustainable reform.
    We continue to work with the New Orleans police department 
to develop a comprehensive blueprint for reform that will 
reduce crime, ensure respect for the Constitution, and restore 
much needed public confidence in the New Orleans police 
department.
    Today, in Pennsylvania, sentencing is scheduled for two 
former police officers from Shenandoah, Pennsylvania who were 
convicted of charges relating to the cover up of a hate fueled 
beating death of a Latino man that occurred in that town. 
Following the beating, the police covered up the incident in an 
effort to protect the assailants, who were also convicted of 
hate crimes in a prior trial.
    Every day in the Civil Rights Division presents me and my 
staff and our outstanding team of dedicated career attorneys 
and professionals with a new opportunity to protect and defend 
the rights of individuals who might not be able to assert those 
rights on their own. We are very proud to carry the torch of 
the great civil rights pioneers who fought for our laws that 
would ensure equal opportunity and equal access to justice. And 
we honor their legacy by enforcing those laws aggressively, 
independently, and even-handedly.
    I look forward for the opportunity to talk further about 
our work, and I look forward to answering your questions.
    It is an honor to be here, Mr. Chairman, Mr. Chairman, and 
Ranking Members.
    Thank you for your time, and thank you for your courtesy.
    [The prepared statement of Mr. Perez follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Well, thank you, Mr. Perez. We thank you for 
your testimony. And I will now begin the questioning by 
recognizing myself for 5 minutes.
    Mr. Perez, in a 2009 opinion, Northwest Austin, the Supreme 
Court questioned, but did not decide, whether Section 5 of the 
Voting Rights Act is still constitutional. After that opinion 
was handed down, many of the commentators suggested that 
increased use of the bailout process, through which a covered 
jurisdiction may seek exemption from Section 5 coverage, may be 
the only way to save Section 5 from being declared 
unconstitutional.
    Is the Division encouraging covered jurisdictions to seek 
bailouts from Section 5 in an effort to bolster its 
constitutionality or to have it survive constitutional 
scrutiny?
    Mr. Perez. The short answer, Mr. Chairman, is absolutely. 
Following that decision, we, among other things, prepared 
guidance on what the Northwest Austin decision means. We have 
been working with jurisdictions across the country on bailout 
issues. And this year, in this Fiscal Year alone, we have five 
bailout actions that have been filed in this Fiscal Year alone, 
which is more than any previous Fiscal Year in the history of 
the Civil Rights Division. So, we take our bailout 
responsibilities very seriously. We read the opinion carefully, 
and we will continue to comply with it. And if jurisdictions 
are able to satisfy that, we will, of course, accede to it. And 
that is why we have launched this, I believe, very impressive 
and successful campaign.
    Mr. Franks. Mr. Perez, sworn testimony and handwritten 
meetings notes obtained by the Committee clearly indicate that 
your Deputy Assistant Attorney General, Julie Fernandes, has 
told the Voting Section staff under this Administration that 
Federal voting laws are not to be enforced in a race neutral 
manner, and that this Administration has no interest in 
enforcing the voting list maintenance requirements of Section 8 
of the National Voter Registration Act.
    Specifically, those statements by Ms. Fernandes are as 
follows: ``Equality for racial and ethnic minorities is what we 
are all about.'' The next one: ``Our goal is to ensure equal 
access for voters of color or minority language.'' The next 
one: ``There is no interest in enforcing the list maintenance 
requirements of Section 8 of the National Voter Registration 
Act.''
    As Assistant Attorney General of the Civil Rights Division, 
what have you done, Mr. Perez, to address these, what are 
somewhat troublesome statements by Ms. Fernandes?
    Mr. Perez. I certainly take these allegations seriously. I 
spoke with Ms. Fernandes, I spoke with others, and we conducted 
a careful review. And Ms. Fernandes has categorically denied 
making statements to that nature. We answered a letter from 
Chairman Smith.
    And I would note also that the OPR report that you have a 
copy of looked at those issues and concluded that the 
allegations pertaining to Ms. Fernandes were without merit. And 
so, I would certainly direct the attention to the finding in 
the report that Ms. Fernandes' comments provided no evidence of 
an underlying ideological agenda of the Division. And so, I 
would also direct the Committee's attention to the OPR report 
in this particular case.
    As I have said and as Ms. Fernandes has reiterated, we make 
our decisions based on an application of the facts to the law. 
We do so in an even-handed manner. And, frankly, our actions 
bear that out. We have enforced under the Voting Rights Act 
cases involving victims who are African-American, defendants 
who are white. We have enforced cases under our watch involving 
the opposite. We do not racially bean-count who the defendants 
are in our Section 2 work.
    And in addition, we have other cases across the Division, 
whether it is our employment work, where we have cases where we 
have vindicated the rights of African-American victims, and 
cases where we have vindicated the right of white victims. And 
we have cases in the education docket where we have vindicated 
the rights of victims of all races and ethnicities.
    Mr. Franks. Thank you. The OPR report that you mentioned 
only dealt with that issue on kind of a peripheral basis. It 
was more focused on the Black Panther case. But I guess you are 
assuring us that Ms. Fernandes' ostensible, remarks do not 
constitute the Division's current operating policy with regard 
to enforcement of our Voting Rights Act.
    And I want to ask you a quick question before my time is 
gone here.
    Mr. Perez. Sure.
    Mr. Franks. In 2009, Congress enacted the MOVE Act, which 
requires States to mail absentee ballots to military and 
overseas voters at least 45 days before an election. Its intent 
was to end the historical disenfranchisement of deployed 
military servicemembers. Our men and women in uniform safeguard 
all of our rights, of course, and protecting their right to 
vote is the least we can do.
    Unfortunately, in the 2010 election, the Civil Rights 
Division was slow to identify jurisdictions that had not 
complied with the law. As a result, many jurisdictions across 
the country denied military voters their legal right to a 
timely absentee ballot.
    How will the Civil Rights Division improve the MOVE Act 
enforcement in the 2012 election so that no military voters are 
disenfranchised?
    Mr. Perez. Thank you for your question, sir. With all due 
respect, I disagree with your characterization of our work 
there. I am very proud of the work that we did. It was an 
unprecedented effort.
    There have been, for instance, roughly 40 lawsuits that 
have been filed in the 25-year history of UOCAVA as amended by 
the MOVE Act. Five of those lawsuits, one-eighth of those 
lawsuits, were filed in the 2010 cycle alone. We filed cases 
against 14 jurisdictions where they were either lawsuits, court 
orders, out of court settlements, letter agreements. And 
through those actions, we were able to ensure that over 60,000 
overseas and military voters, who might otherwise have not had 
an opportunity to vote in a timely fashion, were in fact able 
to do so. It was an unprecedented expenditure of time and 
effort, and it was a very successful one.
    Having said that, we were in front of Chairman Lungren and 
we talked about how we can learn and do even more. And we look 
forward to working with this Committee and others to talk about 
the lessons learned from that election and the lessons moving 
forward to ensure that everybody who is a military or overseas 
voter can have access to the ballots.
    I appreciate your question.
    Mr. Franks. Thank you, Mr. Perez. I appreciate your 
answers.
    And I will now recognize our Ranking Member for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Assistant Attorney General Perez, there have been lot of 
States recently that have been enacting so-called voter ID 
laws. Do you think that these voter ID laws in general raise 
serious questions regarding the denial of access to particular 
groups and warrant great scrutiny from the Civil Rights 
Division?
    Mr. Perez. Well, there have been, as you correctly point 
out, Congressman Nadler, a number of States that have enacted 
these laws. In States that are covered by Section 5 of the 
Voting Rights Act, they will be required to submit those laws 
to the Department of Justice for pre-clearance, or, in the 
alternative, to file a complaint in the District Court of D.C.
    Mr. Nadler. And the States that are not covered by Section 
5, would you review them under Section 2?
    Mr. Perez. Yes, and that was the second part of my answer. 
We have authority under Section 2 to address issues that would 
include the voter ID context if in fact there's a determination 
that they constitute some form of discrimination in the voting 
context. And so, those are the two----
    Mr. Nadler. Have you reviewed any of them and made 
determinations yet?
    Mr. Perez. We are reviewing. We are certainly aware of all 
of the laws that have been passed, whether it is a covered 
jurisdiction or a non-covered jurisdiction. And each law is 
different, and so we apply the facts to the law, and we will do 
that in those circumstances to make an appropriate judgment.
    Mr. Nadler. Has the Department pre-cleared photo ID and 
citizenship requirements in Section 5 jurisdictions yet?
    Mr. Perez. There are examples of voter ID requirements that 
have been pre-cleared, and I would have to get you the full 
answer of exactly which states. I do not recall off the top of 
my head. I believe Georgia might be one, and I believe in the 
prior Administration, there may have been one in Arizona. But I 
am not sure if that was citizenship or voter ID. But I can get 
you a full list.
    Mr. Nadler. Thank you. Given the fact that most of these 
laws require that you get a photo ID or a non-photo ID from the 
Division of Motor Vehicles or something like that, and that 
getting those in many states requires in turn that you get as a 
foundation document a passport or a birth certificate, which 
costs money to get in many states, do you think that that might 
be a violation of the poll tax?
    Mr. Perez. Well, we are looking at all of the facts and 
circumstances of all the laws passed, and each State has a 
different set of circumstances. And so, it is difficult to give 
a categorical answer without looking at the specifics of each 
particular law.
    Mr. Nadler. And you are looking at all these laws now?
    Mr. Perez. Yes, we are.
    Mr. Nadler. And recently, one of the States--I think it was 
Florida--passed a law that not only included voter ID, but 
essentially made it impossible to conduct voter registration 
drives by making very onerous restrictions and liability on 
anybody who conducts a voter registration drive, so much so 
that the League of Women Voters said they would no longer do 
voter registration in that State. Are you going to be looking 
at that?
    Mr. Perez. Well, there are a number of counties in Florida 
that are covered under Section 5, so if it constitutes a change 
to voting, then there would be, again, the pre-clearance 
requirements that I discussed.
    Mr. Nadler. Okay. We passed the National Voter Rights Act 
back in 1993, which requires social service agencies to provide 
voter registration opportunities. That has largely been 
unenforced. Will the Civil Rights Division be concentrating on 
making sure that that law is enforced?
    Mr. Perez. We have an aggressive program of enforcement of 
the NVRA. We have reached a settlement recently. It was the 
first NVRA Section 7 lawsuit in 7 years. It was in Rhode 
Island. We have a number of cases that we are taking a look at 
under Section 7, Section 8. And I agree with you that the Motor 
Voter law is a critical component of the broad effort to ensure 
access to the ballot. And so, we will continue to aggressively 
and independently enforce the NVRA.
    Mr. Nadler. Because from where I sit, all of these 
constitute a very deliberate attempt to disenfranchise minority 
voters, young voters, older voters who are likely 
statistically, to a great extent, not to have a voter ID, not 
to have driver's licenses and so forth. And I would hope that 
the effects of the malevolently intended laws will be properly 
examined.
    The last question I have, when this Administration launched 
its version of the faith-based initiative, Administration 
officials explained that the issue of hiring discrimination on 
the basis of religion and taxpayer funded social service 
contracts and grants, which was a central aspect of President 
Bush's faith-based initiative, would be reviewed by the 
Department. In December of 2009, you testified before the 
Subcommittee that, ``I think the Department will continue to 
evaluate these legal questions that arise with these 
programs.''
    Is the Civil Rights Division involved with this review, and 
what can you tell us about this review as of now?
    Mr. Perez. The review remains ongoing. And, again, we are 
committed to ensuring that we can partner with faith-based 
organizations in a way that is both consistent with our laws 
and with our values, and that we continue to address these 
legal questions that you have raised.
    We are not leading that effort in the Department. Other 
components are involved in that.
    Mr. Nadler. Who?
    Mr. Perez. I do not recall who is leading that effort right 
now, but it is not the Civil Rights Division.
    Mr. Nadler. Thank you. I see my time has expired. I yield 
back.
    Mr. Franks. I thank the Ranking Member.
    And I now recognize the gentleman from Iowa, Mr. King, for 
5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Perez. Good afternoon, sir.
    Mr. King. Mr. Perez, thank you. I appreciate you being here 
to testify. And just a couple of things. I would like to start 
out with some clarification.
    I know that we have perhaps a better perspective in the 
rear view mirror, so I am looking back on that date in 2009. 
And I am thinking of an exchange that took place between 
yourself and Mr. Gohmert. And that question that he asked was, 
did you review or did you watch the video of the New Black 
Panthers. Do you recall that question?
    Mr. Perez. I do not recall the question, but I know the 
answer to the question. And the answer is yes.
    Mr. King. Okay, thank you. And I would just point out for 
the Committee that Mr. Gohmert, although he is not able to be 
here today, asked that question five times before he got that 
straight answer. And I appreciate the clarity that comes today. 
I do not think we had it then.
    And I would see if we could clarify something else again. 
On that day, you testified that the maximum penalty was 
obtained against the, let me say, perpetrator, singular, of the 
voter intimidation of the New Black Panthers. Do you believe 
that today, that the maximum penalty was obtained?
    Mr. Perez. The maximum penalty in that case was injunctive 
relief, and that is the maximum penalty under Section 11 of the 
Voting Rights Act. If Congress wants to expand the penalties, 
we would be happy to have that discussion. So, that was the 
maximum penalty. And as I recall----
    Mr. King. Would I be naive if I were led to believe that 
injunctive relief was a clear and concise definition under the 
law, that everybody else here understands the scope of 
injunctive relief, or could you describe the full scope of 
injunctive relief that was available as a means to bring 
against the defendant?
    Mr. Perez. The scope of injunctive relief depends on the 
scope of the violation. And once the national party and the 
leader of the national party were dismissed from the case, then 
the scope of the relief had to, by force of law, be 
appropriately and narrowly tailored to fit the violation.
    Mr. King. Could it have been more narrowly tailored than it 
actually was then?
    Mr. Perez. I would have to review that to figure out the 
narrow tailoring. What I would note is that, again, looking at 
the OPR report, the OPR looked at this precise question, 
Congressman, and concluded that the relief sought was indeed 
appropriate given the application of the facts and law in that 
particular case. So, OPR looked----
    Mr. King. And so, the definition then of injunctive relief 
might be narrow or it might be broad. But are you testifying 
before this Committee that the injunctive relief could not have 
been more broad? Could it not have gone beyond Philadelphia, 
for example, into other jurisdictions, perhaps nationwide? 
Could it have not extended beyond the 2012 election? This 
injunction is just about ready to expire. After the next 
election, it is over. So, is it not possible that the 
injunctive relief could have been greater than that that was 
achieved?
    Mr. Perez. Again, as I understand the law, sir, an 
injunction must be narrowly tailored to the violation. And the 
key in this particular case was that once the national party 
and the leader of the national party were dismissed, then the 
injunctive relief had to be appropriately and narrowly 
tailored----
    Mr. King. Let me submit that I believe that could have been 
a nationwide injunction, and that it could have gone on in 
perpetuity, and no one should be passed the statute of, let me 
say, the injunction limitations by a single election being 
ahead of them.
    What about the decision to drop the case against the other 
alleged defendants that were allegedly involved in that 
Philadelphia case?
    Mr. Nadler. Would the gentleman yield for clarification for 
a second?
    Mr. King. In a moment. I will yield when my time runs out. 
It is very close right now. Thank you.
    But the decision to drop the cases against the other 
individuals, you testified, was made not by political, but by 
career employees. And I think the names were Loretta King and 
Mr. Rosenbaum. Does that still remain the case, or would you 
wish to clarify that before the Committee?
    Mr. Perez. The decision was made by Loretta King and Steve 
Rosenbaum, two people who are career attorneys in the Division 
with combined experience of roughly 60 years or so.
    Mr. King. And it was not overruled or reviewed with input 
from political appointees, Perelli and Hirsch?
    Mr. Perez. Well, again, as I have described before the 
commission, any time you make a decision--I have a regular 
Thursday meeting with the Associate Attorney General and other 
people on the leadership chain. When you are making a decision, 
I am about to do something, an issue in case A. We are about 
to----
    Mr. King. But the question was, it was not overruled by or 
influenced unduly by political appointees?
    Mr. Perez. No. And, again, the OPR report concluded, and 
they did not say that there was scant evidence or insufficient 
evidence of political interference. They said there was no 
evidence of political interference.
    Mr. King. Mr. Perez, would you get back to this Committee 
in response to the question, was it possible under the law to 
broaden this injunctive relief to jurisdictions beyond 
Philadelphia and extend it beyond the 2012 election? I think 
the specificity with that is going to tell us is whether we got 
the straightest of answers the last time in December of 2009. 
And I am frustrated that the Department has so many allegations 
against it that it has focused on issues that have to do with 
this loading on the side of minorities when equal justice under 
the law, as you're charged and you testified to that here 
today, that narratives that come out and the evidence that 
there is is replete across the country. And so, I am concerned 
that Lady Justice is and truly blindfolded, and that you 
address these issues without regard to skin color or ethnicity, 
national origin.
    And so, at this point, I do thank you for your testimony, 
and I hope you can identify for this Committee some time when 
you bring a case against someone in a very clear way. And I 
know you have discussed it, but I would like to have some 
details about the case that you brought that is part of the 
package that you brought, which is the race role if you please.
    And now, I know the gentleman from New York has asked if I 
would yield, and I would be happy to do so?
    Mr. Nadler. Thank you. I just want to clarify a matter. I 
am told that the injunction has not in fact expired and will 
not expire. The jurisdiction of the court to supervise 
enforcement of the injunction will expire, but the injunction 
does not expire.
    Mr. King. Well, I thank the gentleman for his input and 
yield back the balance of my time.
    Mr. Franks. Thank you.
    And I now recognize the gentleman from Virginia, Mr. Scott, 
for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Perez, about 70 years ago this month, President 
Roosevelt signed an executive order, 8802, which prohibited 
discrimination in any defense contracts. In '65, President 
Johnson signed an executive order expanding that. So, there has 
been no discrimination in Federal contracts at all until 
recently.
    Under your administration, is it possible for 
administrators of Federal programs to discriminate based on 
religion; that is, to tell somebody they are not qualified for 
a job paid for with Federal money solely because of their 
religion?
    Mr. Perez. Again, sir, I think we have had this 
conversation a number of times.
    Mr. Scott. Yeah. Well, the answer yes or no?
    Mr. Perez. And, again, if there are legal questions that 
arise with the administration of a program, we will look at the 
specific individual facts of a particular case to determine 
whether there is in fact discrimination. And if we find that 
there is in fact discrimination, we will indeed take 
appropriate action.
    Mr. Scott. Does that mean if a program sponsor said we do 
not hire people of your religion, you would take action?
    Mr. Perez. Well, again, I need to know the totality of the 
circumstances, which is why it is difficult----
    Mr. Scott. If it is a faith-based organization running a 
federally-funded program and they have an articulated policy of 
discriminating solely on religion, is that legal under your 
administration?
    Mr. Perez. Again, sir, we are committed, as I have said, to 
ensuring that we enforce these laws that you are describing 
consistent with the----
    Mr. Scott. Does the law allow the discrimination or not?
    Mr. Perez. Again, sir, I need more facts. And that is why--
--
    Mr. Scott. Faith-based organization----
    Mr. Perez [continuing]. When Congressman Nadler asked 
about----
    Mr. Scott. Are you telling me----
    Mr. Perez. When Congressman Nadler asked about the voter ID 
laws, they are very fact intensive. These particular issues are 
similarly fact intensive. We are very concerned about the 
issues that you brought up. I have had, as you know, multiple 
conversations with you about these issues. And, again, I am 
more than willing to continue to----
    Mr. Scott. And you have not acknowledged publicly that it 
is legal under your administration for a program to 
discriminate solely on religion. And you just will not 
acknowledge it. I mean, are you too embarrassed about the 
policy----
    Mr. Perez. Sir----
    Mr. Scott [continuing]. To say, yes, under your 
administration, there are certain sponsors that can 
discriminate solely based on religion?
    Mr. Perez. Sir, what I have said, Congressman, is that I 
want to look at the totality of the circumstances. If there 
is----
    Mr. Scott. I said is it possible.
    Mr. Perez. It is certainly possible that such 
discrimination would be there. But I do not like to----
    Mr. Scott. Well, not there. I said legal.
    Mr. Perez. I do not want to issue categorical statements, 
sir, because absent of specifics of a given factual 
circumstance, it is, I think, ill advised to render broad 
opinions, just as----
    Mr. Scott. It is not a broad opinion. I just asked you 
simply whether it is possible under your administration for any 
sponsor of a federally-funded program to have an articulated 
policy discriminating against people solely based on religion 
or not. Is it possible?
    Mr. Perez. Sir, again, I will reiterate what I have said 
today and a few other times.
    Mr. Scott. If the answer is yes, it is possible, faith-
based organizations have the right----
    Mr. Perez. Yes, it is, sir, it is possible. But, again, I 
need to understand the----
    Mr. Scott. Did you say it was possible?
    Mr. Perez. Sir, could I hear the rest of your question, 
sir?
    Mr. Scott. Is it possible for a faith-based organization to 
tell a job applicant that we do not hire people of your 
religion, even though you would be paid with Federal money?
    Mr. Perez. Oh, okay. I thought you asked the opposite 
question. Is it possible that such activity would constitute 
discrimination, and I said, yes, it is possible. We would have 
to look at the totality of the circumstances.
    Mr. Scott. And the other question is, of course it is 
discrimination. Is it legal?
    Mr. Perez. Unlawful discrimination.
    Mr. Scott. Can it be legal? Can it be legal?
    Mr. Perez. It is possible that the circumstances you 
described would constitute unlawful discrimination, which is 
why I would want to look at the totality of the circumstances.
    Mr. Scott. It is possible that it could be unlawful, and it 
is possible that it could be lawful.
    Mr. Perez. And it all depends on the factual circumstances 
of the matter. And so, that is why I would want to----
    Mr. Scott. So, getting back to my original question that 
you do not want to answer, because I assume you are just too 
embarrassed to have a declaratory sentence that it is possible 
under your administration to run a federally-funded program and 
have an articulated policy of discriminating solely based on 
religion in employment. Is it possible?
    Mr. Perez. As a general matter, Congressman--I will see if 
I can attempt to address your question again--it is unlawful 
for any employer to have a policy specifically discriminating 
against employees of a particular religion, such as Catholics 
or Jews--if you put a sign up, no Catholics need apply. 
However, qualifying religious organizations may give employment 
preferences to co-religionists. And so, the question of whether 
and under what circumstances a particular religious 
organization may prefer co-religionists in employment with 
respect to positions funded by the U.S. is indeed complicated, 
fact driven, and context dependent. And that is why it is 
impossible for me to give you a categorical one size fits all 
answer.
    Mr. Scott. I did not ask for one size fits all. I asked you 
to acknowledge that under your administration it is possible to 
run a program and have an articulated policy of employment 
discrimination solely based on religion. And all you have given 
is a bunch of mumbo jumbo avoiding the question. The answer is 
yes. Yes, you can under certain circumstances tell a job 
applicant, no, you cannot have a job because we do not hire 
people of your religion. And that is the answer, and you refuse 
to give it, I assume, because you are too embarrassed to 
acknowledge the fact.
    Mr. Perez. Sir, I have done my best to answer your 
question. I apologize that it is not good enough for you.
    Mr. Franks. With that, I want to thank the witness for his 
testimony. And without objection, all Members will have 5 
legislative days to submit to the Chair additional written 
questions for Mr. Perez, including you, Mr. Scott, which we 
will forward and ask Mr. Perez to respond promptly so that his 
answers may be made part of the record.
    And without objection, all Members will have 5 legislative 
days within which to submit any additional materials for 
inclusion in the record.
    And with that, again, I thank the Members, and I thank Mr. 
Perez and the observers.
    And this hearing is now adjourned.
    Mr. Perez. Thank you for your courtesy.
    [Whereupon, at 12:53 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Post-Hearing Questions submitted to the Honorable Thomas E. Perez, 
 Assistant Attorney General, Civil Rights Division, U.S. Department of 
                                Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
 Response to Post-Hearing Questions from the U.S. Department of Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

                   Prepared Statement of Sean Bennett

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
